Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




         Omission Of Drugs From
    The Federal Upper Limit List in 2001




                          Inspector General

                          February 2004
                          OEI-03-02-00670
                OFFICE OF INSPECTOR GENERAL


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                            EXECUTIVE SUMMARY


OBJECTIVE

          This inspection: (1) determined whether drugs that met the criteria established by Federal laws
          and regulations were included on the Federal Upper Limit list in 2001, and (2) calculated the
          potential savings that could have resulted in 2001 if additional drugs that met the established
          criteria had been included on the Federal Upper Limit list.



BACKGROUND

          In 1987, 42 CFR § 447.332 authorized the Centers for Medicare & Medicaid Services
          (CMS) (formerly the Health Care Financing Administration) to establish Federal Upper Limits
          in order to limit the amount that Medicaid could reimburse for multiple-source drugs. A
          multiple-source drug is defined as “a drug marketed or sold by two or more manufacturers or
          labelers or a drug marketed or sold by the same manufacturer or labeler under two or more
          different proprietary names or both under a proprietary name and without such a name.”
          According to the State Medicaid Manual, these reimbursement limits, commonly known as
          Federal Upper Limits, were established to ensure that the Federal Government acts as a
          prudent payer by taking advantage of current market prices for multiple-source drugs.

          The regulation required CMS to establish a Federal Upper Limit amount for a drug product
          (i.e., each specific dosage form and dosage amount of a drug) when: (1) all versions of a drug
          product had been classified as therapeutically equivalent by the Food and Drug Administration
          (FDA), and (2) at least three suppliers of the drug product are listed in current editions (or
          updates) of published compendia of cost information for drugs available for sale nationally. The
          Omnibus Budget Reconciliation Act of 1990, however, changed this criteria by requiring a
          Federal Upper Limit when three or more versions of a drug product have been rated
          therapeutically and pharmaceutically equivalent by FDA, regardless of the ratings of other
          versions. The Federal Upper Limit amount for a drug is set at 150 percent of the published
          price for the least costly therapeutically-equivalent product plus a reasonable dispensing fee.
          CMS publishes the list of drug products for which Federal Upper Limits have been established
          in the State Medicaid Manual and on its website at www.cms.gov/medicaid/drugs/drug10.asp.

          We obtained a list of the top 200 multiple-source drugs based on retail sales for the year 2001,
          and determined if the drugs were on CMS’s November 2001 Federal Upper Limit list. For
          each of the drugs not on the Federal Upper Limit list, we determined if any forms or strengths
          met the criteria for inclusion on the list. We then calculated a Federal Upper Limit amount for
          any drug products that met the criteria by multiplying the lowest

Omission of Drugs from the FUL List in 2001           i                              OEI-03-02-00670
          price published in the Red Book for Windows by 150 percent. We determined each State’s
          average payment for these drug products by obtaining payment and utilization data from CMS.
          For drug products whose Federal Upper Limit amount would have been less than a State’s
          average payment amount, we calculated potential Medicaid savings by multiplying the price
          difference by Medicaid utilization. We then aggregated the individual savings for each State to
          determine the overall potential savings to Medicaid.



FINDING

Ninety drug products met the established criteria but were not included on the
Federal Upper Limit list in 2001.

          If CMS had included 55 of these drug products on the Federal Upper Limit list, the Medicaid
          program could have saved $123 million in 2001. This represents 30 percent of the $411
          million Medicaid reimbursed for these 55 products that year. Four drug products alone
          accounted for 71 percent of the $123 million in potential Medicaid savings. The Medicaid
          program could have saved $88 million in 2001 by placing these 4 products (albuterol aerosol,
          ipratropium bromide solution, enalapril maleate 20 mg tablets, and clozapine 100 mg tablets) on
          the Federal Upper Limit list.

          The remaining 35 of the 90 drug products met the criteria for inclusion on the Federal Upper
          Limit list but did not have any associated savings. However, States would pay the Federal
          Upper Limit amount only if it were less than the estimated acquisition cost or State maximum
          allowed cost. Therefore, States would not have made higher payments if these products had
          been included on the Federal Upper Limit list.

          After the start of this inspection but prior to the release of the final report, CMS added 9 of the
          90 products to the Federal Upper Limit list. Seven of these drug products (albuterol aerosol,
          ipratropium bromide solution, aspirin/butalbital/caffeine tablets, and 4 strengths of enalapril
          maleate tablets) accounted for a significant portion ($94 million) of the savings we calculated for
          2001.


RECOMMENDATION

          Federal Upper Limits were created to help Medicaid save money by taking advantage of lower
          prices for multiple-source drugs available in the marketplace. Although the Federal Upper
          Limit list already includes over 400 drug products, there are more that could be added. At a
          time when Medicaid prescription drug costs are increasing, efforts should be made to include
          on the Federal Upper Limit list all drugs that meet the requirements. This could result in millions
          of dollars in savings to both State Medicaid programs and the Federal Government.



Omission of Drugs from the FUL List in 2001            ii                              OEI-03-02-00670
          We recommend that CMS take steps to ensure that all drugs meeting the criteria set
          forth in Federal laws and regulations are included on the Federal Upper Limit list.

Agency Comments

          CMS states that they do not agree with the Office of Inspector General’s (OIG’s) savings
          estimates. Specifically, CMS states that OIG used only the Red Book to identify suppliers and
          prices, and did not subsequently verify the information provided in the Red Book with suppliers.
          In addition, CMS states that three of the products that we identified as leading to the most
          savings were recently added to the Federal Upper Limit list. Therefore, CMS believes that our
          savings estimates should be reduced accordingly. CMS also believes that it is nearly impossible
          to say with certainty that a particular group of products has been incorrectly excluded from the
          Federal Upper Limit list at any one time since pricing and product information changes
          frequently. CMS believes that their efforts to add and remove drug products on the Federal
          Upper Limit list should be recognized by OIG. Finally, CMS states it does not believe that
          products that would not lead to savings should be included on the Federal Upper Limit list.

          While CMS disagrees with our savings estimates, we are unable to determine if they concur
          with our recommendation that drugs which meet the criteria should be included on the Federal
          Upper Limit list, as well as what, if any, actions CMS plans to take in response to our report.
          OIG stands by the drugs identified as meeting the criteria, the subsequent savings estimates, and
          our recommendation.




Omission of Drugs from the FUL List in 2001          iii                             OEI-03-02-00670
                           TABLE                       OF              CONTENTS


                                                                                                                              PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDING


          Ninety drug products met the criteria for a Federal Upper Limit in 2001 . . . . . . . . . . . . . . . . 6



RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


APPENDIX


          A. Drug Products With Federal Upper Limit Savings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          B. Centers for Medicare & Medicaid Services’s Comments . . . . . . . . . . . . . . . . . . . . . . . . 12


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15





Omission of Drugs from the FUL List in 2001                       iv                                        OEI-03-02-00670
                                       INTRODUCTION


OBJECTIVE

          This inspection: (1) determined whether drugs that met the criteria established by Federal laws
          and regulations were included on the Federal Upper Limit list in 2001, and (2) calculated the
          potential savings that could have resulted in 2001 if additional drugs that met the established
          criteria had been included on the Federal Upper Limit list.



BACKGROUND

Medicaid Program

          Medicaid is a jointly-funded, Federal-State health insurance program for certain low income
          and medically-needy people. Individual States establish eligibility requirements, benefit
          packages, and payment rates for their Medicaid program under broad Federal standards set by
          the Centers for Medicare & Medicaid Services (CMS) (formerly the Health Care Financing
          Administration). Federal regulations mandate that States provide basic services to beneficiaries
          in order to receive Federal matching funds. States may also receive Federal funding if they
          provide other optional services. One of the most commonly covered optional services that
          States provide is prescription drug coverage. All 50 States and the District of Columbia
          currently offer prescription drug coverage under the Medicaid program. In calendar year
          2001, Medicaid payments for prescription drugs totaled almost $24 billion.

Medicaid Drug Reimbursement Methodology

          Each Medicaid agency is required to submit a State plan to CMS describing its payment
          methodology for covered drugs. Federal regulations require that each State’s reimbursement
          for a drug not exceed the lower of its estimated acquisition cost plus a reasonable dispensing
          fee or the provider’s usual and customary charge to the public for the drug. States have
          implemented dispensing fees that range from $2.00 to $5.60 per prescription.

          CMS allows States flexibility in defining estimated acquisition cost. Most States base their
          calculation of estimated acquisition cost on a drug’s average wholesale price discounted by a
          certain percentage. This discount ranged from 5 percent to 15 percent in the year 2001. A
          small number of States use wholesale acquisition costs rather than average wholesale prices
          when determining estimated acquisition cost. Average wholesale prices and wholesale
          acquisition costs are reported by companies, such as First DataBank and Medical Economics.



Omission of Drugs from the FUL List in 2001          1                               OEI-03-02-00670
          For certain drugs, States also use the Federal Upper Limit and State Maximum Allowable Cost
          programs in determining reimbursement amounts. CMS has established Federal Upper Limit
          amounts for over 400 drugs. In addition, more than half of the States have implemented a
          Maximum Allowable Cost program in order to reduce reimbursement amounts for certain
          drugs. Individual States determine the types of drugs that are included in their Maximum
          Allowable Cost program, and the method by which the Maximum Allowable Cost for a drug is
          calculated.

          In summary, States often use a variety of different pricing mechanisms when setting
          reimbursement amounts. In most cases, States reimburse for a drug at the lower of its
          estimated acquisition cost, the Federal Upper Limit amount, the Maximum Allowable Cost, or
          the provider’s usual and customary charge.

Federal Upper Limit List

          In 1987, 42 CFR § 447.332 authorized CMS to establish Federal Upper Limits in order to
          limit the amount that Medicaid could reimburse for multiple-source drugs. A multiple-source
          drug is defined as “ . . . a drug marketed or sold by two or more manufacturers or labelers or a
          drug marketed or sold by the same manufacturer or labeler under two or more different
          proprietary names or both under a proprietary name and without such a name.” According to
          the State Medicaid Manual, these reimbursement limits, commonly known as Federal Upper
          Limits, were established to ensure that the Federal Government acts as a prudent payer by
          taking advantage of current market prices for multiple-source drugs.

          The regulation required CMS to establish a Federal Upper Limit amount for a drug product
          (i.e., each specific dosage form and dosage amount of a drug) when: (1) all versions of a drug
          product had been classified as therapeutically equivalent by the Food and Drug Administration
          (FDA), and (2) at least three suppliers of the drug product are listed in current editions (or
          updates) of published compendia of cost information for drugs available for sale nationally. The
          Omnibus Budget Reconciliation Act of 1990, however, changed this criteria by requiring a
          Federal Upper Limit when three or more versions of a drug product have been rated
          therapeutically and pharmaceutically equivalent by FDA, regardless of the ratings of other
          versions. FDA identifies equivalent drug products in their publication Approved Drug
          Products with Therapeutic Equivalence Evaluations. According to FDA, drugs that are
          therapeutically equivalent are designated as “A-rated.”

          The regulation sets the Federal Upper Limit amount at 150 percent of the published price for
          the least costly therapeutically-equivalent product that can be purchased in quantities of 100
          tablets or capsules plus a reasonable dispensing fee. If the drug product is not available in
          quantities of 100 or if the drug product is a liquid, then the Federal Upper Limit amount should
          be based on a commonly listed size. States are required to meet the Federal Upper Limit
          requirements only in the aggregate. This means that a State can pay more than the Federal
          Upper Limit amount for certain products as long as it pays less than the Federal Upper Limit
          amount for other products.

Omission of Drugs from the FUL List in 2001           2                               OEI-03-02-00670
          CMS publishes the list of drug products for which Federal Upper Limits have been established
          in the State Medicaid Manual. The Federal Upper Limit list is also available on CMS’s
          website at www.cms.gov/medicaid/drugs/drug10.asp. Any revisions to the Federal Upper
          Limit list are typically noted in Medicaid program memoranda and on the CMS website. CMS
          establishes an upper limit for specific forms and strengths for each multiple-source drug on the
          list. The Federal Upper Limit list also provides the source of the pricing information used to
          calculate the upper limit amount for each drug.



METHODOLOGY

Information from CMS

          We met with CMS staff to obtain a better understanding of how CMS administers Federal
          Upper Limits. We discussed with CMS the procedures used to identify drugs that should be
          placed on the Federal Upper Limit list, as well as the methods used to calculate the Federal
          Upper Limit amount. CMS also provided documentation of these procedures.

Determining Whether Drugs Met Federal Upper Limit Criteria

          Determining Drugs Not Currently on the Federal Upper Limit List. We obtained a list
          of the top 200 multiple-source drugs based on retail sales for the year 2001 from Drug Topics
          magazine. We compared the Drug Topics list to CMS’s November 2001 Federal Upper
          Limit list. In making this comparison:

          (1) If Drug Topics listed a specific form for a drug, then we determined if this specific form was
          on the Federal Upper Limit list.

          (2) If Drug Topics did not list a specific form, then we determined if any form of the drug was
          on the Federal Upper Limit list.

          For example, if Drug Topics magazine placed ibuprofen liquid on its list of top 200 multiple-
          source drugs, then the liquid form of ibuprofen would need to be specifically mentioned on the
          Federal Upper Limit list. However, had Drug Topics simply listed ibuprofen (with no specific
          form), then we determined if any forms of ibuprofen were part of the Federal Upper Limit list.
          If any form of the drug appeared on the Federal Upper Limit list, then we concluded that the
          drug was included. In total, we determined that 64 of the 200 multiple-source drugs from the
          Drug Topics list were not included on the Federal Upper Limit list as of November 2001.

          Identifying All Versions of the 64 Drugs Not on the Federal Upper Limit List. Because
          CMS calculates an upper limit amount for every form and strength of a drug (i.e., each specific
          drug product) that meets the criteria set forth by Federal laws and regulations, we needed to
          identify all the forms and strengths for each of the 64 multiple-source drugs not on the Federal
          Upper Limit list. We used the October 2001 edition of the Red Book for Windows (published
          by Medical Economics) to gather this information.

Omission of Drugs from the FUL List in 2001           3                               OEI-03-02-00670
          According to the Red Book, these 64 multiple-source drugs were associated with 200 different
          drug products in various forms and strengths.

          We then compiled a list of all the national drug codes (NDCs) associated with each of the 200
          drug products. Each individual drug product manufactured or distributed in the United States
          has a unique NDC. NDC identifies the manufacturer of the drug product, the product dosage
          form, and the package size. For each NDC, the Red Book provides published prices (usually
          average wholesale prices and wholesale acquisition costs), supplier information, and FDA
          therapeutic equivalency data. The Red Book also lists whether the individual drug product is a
          brand or generic version.

          Determining if the 200 Drug Products Met Federal Upper Limit Criteria. We used the
          Red Book to determine whether each of the 200 drug products met the established criteria for
          inclusion on the Federal Upper Limit list. We first determined whether each of the drug
          products had at least three versions deemed therapeutically-equivalent (A-rated) by FDA. For
          any drug products that met this criteria, we verified that there were at least three suppliers listed
          in the Red Book. In all, 90 of the 200 drug products met the criteria for inclusion on the
          Federal Upper Limit list. These 90 drug products comprised different forms and strengths of
          42 drugs from Drug Topics’ list of the top 200 multiple-source drugs. Table 1 below illustrates
          the steps taken to reach this number.

               Table 1: Number of Drugs and Drug Products in Each Stage of Methodology
                 Methodology Step               Number of Drugs                Number of Drug Products

            Drug Topics’ Top 200                      200                           Not determined
            Multiple-Source Drugs

            Drugs on Drug Topics’
            List Not on the Federal                    64                                200
            Upper Limit List

            Drugs Not on Federal
            Upper Limit list that Met                  42                                 90
            Federal Upper Limit
            Criteria



Calculating Federal Upper Limit Amounts

          To calculate a Federal Upper Limit amount for the 90 drug products that met the criteria for
          inclusion, we used pricing information and therapeutic equivalency data from the Red Book.
          Federal regulations set the upper limit amount at 150 percent of the least costly therapeutically-
          equivalent product that can be purchased in package sizes of 100 (with certain exceptions).
          Therefore, we determined which of the A-rated versions available in a package size of 100 had
          the lowest price listed in the Red Book. If a product was not available in a package size of
          100, we determined the lowest price for the most common package size listed in the Red Book.
          We then multiplied this price by 150 percent to determine the Federal Upper Limit amount for
          the drug product. This potential Federal Upper Limit amount would apply to all NDCs

Omission of Drugs from the FUL List in 2001            4                                OEI-03-02-00670
          associated with the drug product. We did not verify that the prices published in the Red Book
          were actually available in the marketplace.

Calculating Medicaid Payments

          To determine the amount Medicaid reimbursed for the 90 drug products that met the Federal
          Upper Limit criteria, we downloaded 50 Medicaid payment and utilization files for calendar
          year 2001 from CMS’s website. We did not include Arizona because its drug payment and
          utilization file was not available. Each file contained variables representing total State payments,
          number of units reimbursed, and number of prescriptions written for every NDC listed on a
          paid claim in 2001. We removed NDCs associated with brand versions of the drug product
          from the file. We excluded brand versions because many State Medicaid agencies require a
          generic version of the drug product to be dispensed.

          The total State payment amount listed in the files included both the payments for the drug
          product and the dispensing fees paid to the pharmacy. To determine a State’s payments for the
          drug product only, we:

          (1) Aggregated total State payments, number of units reimbursed, and number of prescriptions
          written for all generic NDCs associated with the product

          (2) Calculated the total amount the State paid in dispensing fees for the drug product by
          multiplying the State’s dispensing fee by the number of prescriptions written for the product

          (3) Subtracted this amount from the total State payments for the drug product

          We then calculated the average State payment by dividing the State’s payments for the drug
          product (without the dispensing fee) by the number of units reimbursed. One of the 90 drug
          products did not have payment data listed in the State files, and was therefore, not included in
          subsequent calculations.

Calculating Potential Savings

          We calculated the difference between the average State payment and the potential Federal
          Upper Limit amount. If the potential Federal Upper Limit amount for a drug product was less
          than the average State payment, we multiplied the price difference by the number of units
          reimbursed in order to determine each State’s potential savings for the product. For each of
          the drug products with potential savings, we added the savings among all States. Finally, we
          aggregated the savings for all drug products to determine the overall potential savings to the
          Medicaid program.


          This study was conducted in accordance with the Quality Standards for Inspections issued by
          the President’s Council on Integrity and Efficiency.


Omission of Drugs from the FUL List in 2001            5                                OEI-03-02-00670
                                              FINDING

Ninety drug products met the established criteria but were not
included on the Federal Upper Limit list in 2001

          Each of the 90 drug products had at least 3 versions rated therapeutically equivalent by FDA,
          and were available from 3 or more suppliers. These 90 drug products accounted for $667
          million in Medicaid reimbursement in 2001. Prior to the release of this report, CMS added 9 of
          the 90 products to the Federal Upper Limit list.

Adding 55 of the 90 drug products to the Federal Upper Limit list could have
saved Medicaid $123 million in 2001

          Medicaid could have saved $123 million in 2001 by adding 55 drug products to the Federal
          Upper Limit list. This represents 30 percent of the $411 million Medicaid reimbursed for the
          55 products that year. Each of these drug products had at least three versions rated
          therapeutically equivalent by FDA and were available from three or more suppliers. These 55
          products represented various forms and strengths of 25 drugs from Drug Topics magazine’s list
          of top 200 multiple-source drugs by retail sales in 2001.

          Four drug products accounted for 71 percent of the $123 million in potential Medicaid savings
          in 2001. The Medicaid program could have saved $88 million in 2001 by placing these four
          products (albuterol aerosol, ipratropium bromide solution, enalapril maleate 20 mg tablets, and
          clozapine 100 mg tablets) on the Federal Upper Limit list. Albuterol aerosol accounted for 42
          percent of overall savings. The State of New York alone could have realized $9.2 million in
          savings had albuterol aerosol been included on the list in 2001. The total savings attributed to
          the four products are shown in Table 2 on the following page. A complete list of the 55 drug
          products and their savings is presented in Appendix A. We did not verify that the prices
          published in the Red Book were available in the marketplace.

          An additional 35 drug products met the criteria for inclusion on the Federal Upper Limit list but
          did not have any associated savings. These 35 drug products represented various forms and
          strengths of 23 drugs from Drug Topics magazine’s list of top multiple-source drugs by retail
          sales. For 34 of these 35 drug products, no State had an average payment amount for the
          product that was less than the potential Federal Upper Limit amount. Medicaid did not make
          any payments for 1 of the 35 drug products. Therefore, this product did not have any potential
          savings. States reimburse for a drug at the lower of its estimated acquisition cost, the Federal
          Upper Limit amount, the Maximum Allowable Cost, or the provider’s usual and customary
          charge. States would only pay the Federal Upper Limit amount for a drug product if it were
          the lowest of these options. Therefore, States would not have made higher payments if these
          35 products had been included on the Federal Upper Limit list.


Omission of Drugs from the FUL List in 2001           6                               OEI-03-02-00670
         Table 2: Drug Products With The Highest Potential Federal Upper Limit Savings
                                                                             Potential
                                                Total                      Federal Upper                    Potential
          Drug Product                 Medicaid Reimbursement              Limit Amount                      Savings

 Albuterol Aerosol,                           $87,481,266                        $0.39                     $52,299,768
 0.09 mg/inh1

 Ipratropium Bromide, 0.02%                   $65,156,902                        $0.34                     $19,945,230
 solution2

 Enalapril Maleate,                           $21,332,860                        $0.72                     $7,918,226
 20 mg tablet 2

 Clozapine,                                   $83,652,722                        $2.48                     $7,742,010
 100 mg tablet

 Total                                        $257,623,750                                                 $87,905,234
       Source: OIG analysis of 2001 Medicaid drug utilization and payment data and October 2001 Red Book pricing data



          After the start of this inspection but prior to the release of the final report, CMS added 9 of the
          90 products to the Federal Upper Limit list. Seven of these drug products (albuterol aerosol,
          ipratropium bromide solution, aspirin/butalbital/caffeine tablets, and four strengths of enalapril
          maleate tablets) accounted for a significant portion ($94 million) of the savings we calculated for
          2001. Albuterol aerosol was added to the Federal Upper Limit list on March 11, 2003,
          ipratropium bromide and enalapril maleate were added on August 24, 2003, and
          aspirin/butalbital/caffeine was added on November 2, 2003. According to our analysis, adding
          the other two products (buspirone hydrochloride and oxaprozin) would not have led to any
          savings that year.




          1
           Albuterol aerosol was added to the Federal Upper Limit list on March 11, 2003.

          2
           Ipratropium bromide solution and enalapril maleate tablets were added to the Federal Upper Limit list on 

          August 24, 2003.



Omission of Drugs from the FUL List in 2001                     7                                     OEI-03-02-00670
                                RECOMMENDATION

          Federal Upper Limits were created to help Medicaid save money by taking advantage of lower
          prices for multiple-source drugs available in the marketplace. Although the Federal Upper
          Limit list already includes over 400 drug products, there are more that could be added to the
          list. At a time when Medicaid prescription drug costs are increasing, efforts should be made to
          include on the Federal Upper Limit list all drugs that meet the requirements. This could result in
          millions of dollars in savings to both State Medicaid programs and the Federal Government.

          We recommend that CMS take steps to ensure that all drugs meeting the criteria set
          forth in Federal laws and regulations are included on the Federal Upper Limit list.


Agency Comments

          CMS states that they do not agree with the the Office of Inspector General’s (OIG’s) savings
          estimates. Specifically, CMS states that OIG used only the Red Book to identify suppliers and
          prices, and did not subsequently verify the information provided in the Red Book with suppliers.
          In addition, CMS states that three of the products that we identified as leading to the most
          savings were recently added to the Federal Upper Limit list. Therefore, CMS believes that our
          savings estimates should be reduced accordingly. CMS also believes that it is nearly impossible
          to say with certainty that a particular group of products has been incorrectly excluded from the
          Federal Upper Limit list at any one time since pricing and product information changes
          frequently. CMS believes that their efforts to add and remove drug products on the Federal
          Upper Limit list should be recognized by OIG. Finally, CMS states it does not believe that
          products that would not lead to savings should be included on the Federal Upper Limit list.

          CMS also includes a technical comment stating that four sections of this report do not describe
          all the potential situations in which Federal Upper Limits may be established. CMS suggests
          that we revise these sections of the report.

          The full text of CMS’s comments is presented in Appendix B.

OIG Response

          In the report, we recommended that all products that meet the criteria set forth in the statute
          and regulation be included on the Federal Upper Limit list. The regulatory criteria only require
          that three suppliers who offer therapeutically-equivalent products be listed in current editions of
          national pricing compendia, and that the Federal Upper Limit amount be set at 150 percent of
          the lowest published price. We strictly followed these criteria in identifying the 90 drug
          products that had not been included in 2001 and in calculating their potential Federal Upper
          Limit amounts.



Omission of Drugs from the FUL List in 2001            8                               OEI-03-02-00670
                                                                                   APPENDIX A


          CMS believes that drugs that meet the criteria but have no associated savings should not be
          included on the Federal Upper Limit list. However, the Omnibus Budget Reconciliation Act of
          1990 states that “[CMS] shall establish a Federal upper reimbursement limit...” Furthermore,
          States reimburse for a drug at the lower of its estimated acquisition cost, the Federal Upper
          Limit amount, the Maximum Allowable Cost, or the provider’s usual and customary charge.
          Therefore, States would only pay the Federal Upper Limit amount for a drug product if it were
          the lowest of these options, and including a drug on the list would not lead to higher payments.

          In response to CMS’s technical comment concerning therapeutic equivalency requirements, we
          point out that the statute explicitly requires the establishment of a Federal Upper Limit when
          there are at least three therapeutically equivalent products that have been A-rated by FDA.
          The statute states that “[CMS] shall establish a Federal Upper reimbursement limit for each
          multiple source drug for which the FDA has rated three or more products therapeutically and
          pharmaceutically equivalent, regardless of whether all such additional formulations are rated as
          such...” We believe that this statement is clear in its intent that CMS must set a Federal Upper
          Limit in situations in which three products have been A-rated by FDA and the other criteria are
          met. CMS’s comments indicate that the agency takes the position that it also has the discretion
          to set Federal Upper Limits under certain additional circumstances. For the purposes of this
          report, OIG applied a conservative interpretation of the Federal Upper Limit criteria, but would
          expect additional savings to result from a broader application of the criteria.

          In conclusion, OIG believes that the savings estimates for 2001 presented in this report are
          correct for the time period we reviewed. OIG also reaffirms its recommendation that CMS
          should include all products that meet the criteria on the Federal Upper Limit list.




Omission of Drugs from the FUL List in 2001          9                               OEI-03-02-00670
                                                                                                           APPENDIX A

                    Drug Products With Federal Upper Limit Savings

The table below lists the 55 drug products that, if included on the Federal Upper Limit list, could have led to $123 million in
Medicaid savings in 2001. Unless otherwise noted, drug information is based on package sizes of 100.


                                                                      Total Medicaid            Potential Federal          Potential
                         Drug Product                                 Reimbursement               Upper Limit              Savings
 APAP/Butabital/Caffeine
 325 mg-50 mg-40 mg, Capsule                                              $89,384.49                  $0.36                 $324
 325 mg-50 mg-40 mg, Tablet                                             $3,909,337.28                 $0.07              $2,660,418
 500 mg-50 mg-40 mg, Capsule                                             $721,437.87                  $0.69                $31,031
 500 mg-50 mg-40 mg, Tablet                                             $2,506,195.89                 $0.54               $706,407
 Albuterol
 .09 mg/inh, Aerosol, 17 gm 1                                         $87,481,265.89                  $0.39              $52,299,768
 2 mg/5 ml, Syrup, 480 ml                                              $3,242,419.13                  $0.02               $1,111,100
 Aspirin/Butalbital/Caffeine
 325 mg-50 mg-40 mg, Capsule                                            $411,383.11                   $0.57                 $138
 325 mg-50 mg-40 mg, Tablet 2                                           $536,594.21                   $0.06               $363,022
 Aspirin/Butalbital/Caffeine/Codeine
 325 mg-50 mg-40 mg-30 mg, Capsule                                      $2,188,509.43                 $0.84               $179,712
 Bupropion HCL
 100 mg, Tablet                                                         $5,106,598.56                 $0.80               $173,685
 75 mg, Tablet                                                          $4,759,489.74                 $0.65                $1,656
 Clotrimazole
 1%, Cream, 15 gm                                                       $9,064,256.21                 $0.23              $3,501,129
 1%, Solution, 30 ml                                                     $605,040.37                  $0.61                 $148
 Clozapine
 100 mg, Tablet                                                       $83,652,722.25                  $2.48              $7,742,010
 25 mg, Tablet                                                         $7,907,922.22                  $0.98               $578,799
 Cromolyn Sodium
 10 mg/ml, Solution, 2ml                                                $6,187,808.53                 $0.19              $1,338,246
 Desmopressin Acetate
 4 mcg/ml, Solution, 10 ml                                              $512,170.58                  $10.02               $199,539
 Diflorasone Diacetate
 .05%, Cream, 30 gm                                                      $842,858.89                  $1.50                 $262
 .05%, Ointment, 30 gm                                                  $1,016,670.39                 $1.54                 $315
 Dipyridamole
 25 mg, Tablet                                                           $366,648.16                  $0.10               $152,414
 50 mg, Tablet                                                          $1,015,602.14                 $0.13               $491,145
 75 mg, Tablet                                                           $339,020.00                  $0.14                $6,575
 Enalapril Maleate
 2.5 mg, Tablet 3                                                      $4,782,059.14                  $0.41              $1,544,162
 5 mg, Tablet 3                                                       $16,945,321.12                  $0.51              $5,648,266
 10 mg, Tablet 3                                                      $20,365,750.25                  $0.54              $6,767,074
 20 mg, Tablet 3                                                      $21,332,859.73                  $0.72              $7,918,226
 Erythromycin
 250 mg, Enteric Coated Tablet                                          $295,673.48                   $0.22                $13,881
 Fluvoxamine Maleate
 25 mg, Tablet                                                         $1,643,208.29                  $2.20                  $114
 50 mg, Tablet                                                        $10,737,096.08                  $2.47                 $2,370
 Glyburide Micronized
 1.5 mg, Tablet                                                          $129,870.76                  $0.25                 $4,953
 3 mg, Tablet                                                           $1,479,788.03                 $0.32                 $6,346




   Omission of Drugs from the FUL List in 2001
                    10                                         OEI-03-02-00670
                                                                                                        APPENDIX A

                                                                    Total Medicaid           Potential Federal            Potential
                          Drug Product                              Reimbursement              Upper Limit                Savings
    HC/Neo Sulf/Polymyx
    1%-0.35%-10000 U/mL, Solution-Otic, 10 ml                         $4,010,585.08                $1.53              $1,061,891
    1%-0.35%-10000 U/mL, Suspension-Otic, 10 ml                       $6,794,382.04                $1.53              $1,806,367
    Indomethacin
    25 mg, Capsule                                                     $234,076.01                 $0.05                   $23,200
    50 mg, Capsule                                                     $214,407.05                 $0.08                    $2,334
    75 mg, Extended Release Capsule                                   $1,152,338.18                $0.69                  $316,656
    Ipratropium Bromide
    0.02%, Solution, 2.5 ml 3                                       $65,156,902.28                 $0.34              $19,945,230
    Methadone HCL
    10 mg/mL, Solution, 946 ml                                         $70,613.56                  $0.10                  $19,778
    40 mg, Tablet                                                     $301,985.47                  $0.37                    $64
    Methylphenidate HCl
    20 mg, Extended Release Tablet                                    $7,440,180.34                $1.06                   $141
    Morphine Sulfate
    15 mg, Extended Release Tablet                                    $1,691,463.24                $0.80                   $5,161
    Phentermine HCl
    30 mg, Capsule                                                    $136,369.61                  $0.18                  $104,872
    37.5 mg, Capsule                                                   $1,993.44                   $0.58                    $947
    37.5 mg, Tablet                                                   $199,607.09                  $0.30                  $149,489
    Sotalol HCL
    80 mg, Tablet                                                     $6,536,421.53                $0.39              $4,947,453
    120 mg, Tablet                                                    $1,063,691.05                $0.54               $785,364
    160 mg, Tablet                                                     $559,271.45                 $0.67               $406,557
    240 mg, Tablet                                                      $97,550.50                 $0.94                $72,637
    Timolol Maleate
    0.25%, Gel Forming Solution, 5 ml                                  $268,795.65                 $4.62                    $1
    0.5%, Gel Forming Solution, 5ml                                   $5,062,860.34                $5.50                   $242
    Warfarin
    2.5 mg, Tablet                                                    $3,601,587.06                $0.58                   $1,391
    3 mg, Tablet                                                      $2,213,985.36                $0.58                   $4,462
    4 mg, Tablet                                                      $2,144,529.40                $0.59                   $1,741
    6 mg, Tablet                                                       $735,396.70                 $0.84                    $89
    7.5 mg, Tablet                                                    $1,071,049.80                $0.86                    $87
    TOTAL                                                           $410,935,004.45                                  $123,099,389

1
  Albuterol aerosol was added to the Federal Upper Limit list on March 11, 2003.

2
  Aspirin/Butalbital/Caffeine tablets were added to the Federal Upper Limit list on November 2, 2003.

3
  Ipratropium bromide solution and enalapril maleate tablets were added to the Federal Upper Limit list on August 24, 

2003.





     Omission of Drugs from the FUL List in 2001                 11                                        OEI-03-02-00670
                                                     APPENDIX B



          Centers for Medicare & Medicaid Services’s Comments





Omission of Drugs from the FUL List in 2001   12      OEI-03-02-00670
                                                   APPENDIX B




Omission of Drugs from the FUL List in 2001   13   OEI-03-02-00670
                                                   APPENDIX B




Omission of Drugs from the FUL List in 2001   14   OEI-03-02-00670
                            ACKNOWLEDGMENTS

This report was prepared under the direction of Robert A. Vito, Regional Inspector General for Evaluation
and Inspections in Philadelphia, and Linda M. Ragone, Deputy Regional Inspector General. Other
principal Office of Evaluation and Inspections staff who contributed include:

David Tawes, Team Leader                       Linda Frisch, Program Specialist
Tanaz Dutia, Program Analyst




Omission of Drugs from the FUL List in 2001        15                             OEI-03-02-00670
